                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              AUDIT OF THE LOUISIANA NATIONAL
                                              EMERGENCY GRANT




                                                           Date Issued: September 28, 2007
                                                           Report Number: 04-07-008-03-390
U.S. Department of Labor                           September 2007
Office of Inspector General                        Audit of the Louisiana
Office of Audit
                                                   National Emergency Grant


BRIEFLY…
Highlights of Report Number 04-07-008-03-390,
                                                   WHAT OIG FOUND
                                                   With few exceptions, OIG found that Louisiana
                                                   spent its NEG funds in accordance with Federal
a report to the Assistant Secretary for            requirements, and reported NEG activities and
Employment and Training                            outcomes accurately. Overall, tested grant
                                                   expenditures were allowable, reasonable,
                                                   properly allocated and accurately reported. We
WHY READ THE REPORT                                noted a few exceptions at the Jefferson Parish
                                                   Workforce Connection (JPWC) that involved
On August 29, 2005, Hurricane Katrina came         employee time distribution, discrepancies in
ashore along the Louisiana, Mississippi, and       participants' hours worked at five sub-contractor
Alabama coasts, causing estimated losses of        locations, reporting expenditures on the cash
more than $100 billion. In response, President     basis rather than the required accrual basis of
Bush declared a major disaster for each of these   accounting, and a lack of specific controls to
States under the authority of Robert T. Stafford   review and verify subcontractor invoices prior to
Disaster Relief and Emergency Assistance Act.      making payment.
To assist in the recovery efforts, the
Employment and Training Administration (ETA)       NEG activities and outcomes were accurately
awarded the Louisiana Department of Labor          reported with one exception. We found LDOL
(LDOL) a $62.1 million National Emergency          reported 7 out of 120 sampled NEG participants
Grant (NEG). The purpose of the NEG was to         as temporarily employed even though they
create temporary jobs to assist in disaster        never worked.
cleanup and restoration efforts, and to provide
training opportunities that might lead to          WHAT OIG RECOMMENDED
permanent employment.                              We recommended that the Assistant Secretary
                                                   for Employment and Training direct LDOL to
                                                   ensure that JPWC:
WHY OIG DID THE AUDIT
                                                       •   Adheres to a cost allocation plan for
                                                           employee time distribution.
The OIG conducted a performance audit to
determine whether LDOL spent NEG funds in              •   Reviews and verifies subcontractor
accordance with Federal requirements, and                  invoices before making payments.
reported NEG activities and outcomes
accurately. The audit covered grant                    •   Reports expenditures based on the
expenditures and performance data from                     accrual accounting method.
September 1, 2005, through March 31, 2006.
                                                       •   Develops specific written procedures for
READ THE FULL REPORT                                       reviewing invoices.

                                                   We also recommended that the Assistant
To view the report, including the scope,           Secretary direct LDOL to ensure that participant
methodology, and full agency response, go to:      employment activities are reported accurately.
http://www.oig.dol.gov/public/reports/oa/2007/04   LDOL stated that it agreed to all findings and
-07-008-03-390.pdf                                 recommendations in the report.
                                                        Louisiana Department of Labor
                                                       National Emergency Grant Audit


Table of Contents
                                                                              PAGE

EXECUTIVE SUMMARY ………………………………………………………………………3

ASSISTANT INSPECTOR GENERAL’S REPORT…………………………………………5

RESULTS AND FINDINGS

   1. With few exceptions, tested NEG expenditures were allowable,
      reasonable, allocable and accurately reported ...…………………………........ 6

   2. Overall, NEG activities and outcomes were
      reported accurately. .…………………………………..…………..……........….…10

APPENDICES …………………………………………………………………………………13

   A. Background ……………………………………………………………….…...……..15

   B. Objectives, Scope, Methodology, and Criteria …………………………………17

   C. Acronyms and Abbreviations…………………………...………………...……….21

   D. Auditee's Response………………………………………………………………….23




U.S. Department of Labor—Office of Inspector General                               1
Report Number: 04-07-008-03-390
Louisiana Department of Labor
National Emergency Grant Audit




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                U.S. Department of Labor—Office of Inspector General
                                                     Report Number: 04-07-006-03-390
Executive Summary
The Office of Inspector General conducted a performance audit of the
$62.1 million National Emergency Grant (NEG) awarded to the Louisiana Department of
Labor (LDOL) to assist individuals affected by hurricanes Katrina and Rita. The audit
covered grant expenditures and performance data from September 1, 2005, through
March 31, 2006.

Traditionally, disaster grants provide a variety of services to eligible individuals,
including the temporary employment of individuals to help provide humanitarian
assistance and to work on projects that perform cleaning, repair and renovation of
facilities and lands located in the disaster area. The grant awarded to Louisiana also
provided eligible individuals training opportunities and supportive services. The grant
period covered September 1, 2005, through August 31, 2006.

The objectives of our audit were to answer the following questions:

       •   Were NEG expenditures allowable, reasonable, allocable, and reported
           accurately?

       •   Were the NEG activities and outcomes reported accurately?


Results

On August 29, 2005, Hurricane Katrina made landfall along the Gulf Coast of the United
States. Hurricane Katrina was one of the deadliest and costliest natural disasters in U.
S. history. Despite the extreme conditions in which the LDOL was operating and the
overwhelming need to provide immediate assistance to victims of the hurricane, we
found that, with minor exceptions, LDOL spent its NEG funds in accordance with
Federal requirements, and reported NEG activities and outcomes accurately.

Overall, tested grant expenditures were allowable, reasonable, properly allocated and
accurately reported. However, we noted a few exceptions at the Jefferson Parish
Workforce Connection (JPWC) Local Workforce Investment Area. These exceptions
involved employee time distribution, discrepancies in participants' hours worked at five
sub-contractor locations, reporting expenditures on the cash basis rather than the
required accrual basis of accounting, and a lack of specific controls to review and verify
subcontractor invoices prior to making payment, including verification of participant
timesheets and pay amounts.

NEG activities and outcomes were accurately reported with one exception. We found
LDOL reported 7 out of 120 sampled participants as temporarily employed even though
they never worked, thus overstating LDOL's reported performance in the area of
"Employed in Temporary Disaster Relief Assistance."




U.S. Department of Labor—Office of Inspector General                                         3
Louisiana Department of Labor
National Emergency Grant Audit

Auditee Response

In response to the draft report, the Assistant Secretary of LDOL agreed with the report's
findings and recommendations.

OIG Conclusion

The report's recommendations will be resolved during DOL’s formal audit resolution
process.

Recommendations

We recommend the Assistant Secretary for Employment and Training direct LDOL to
provide technical assistance and oversight necessary to ensure that JPWC:

    •   Adheres to a cost allocation plan for employee time distribution.

    •   Reviews and verify subcontractor invoices before making payments.

    •   Reports expenditures based on the accrual accounting method.

    •   Develops specific written procedures for reviewing invoices, including
        participants' time sheets and pay amounts.

We also recommend that the Assistant Secretary for Employment and Training direct
LDOL to ensure that participant employment activity is reported accurately.




4                                          U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 04-07-006-03-390
                                                                      Louisiana Department of Labor
                                                                     National Emergency Grant Audit

U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for Employment
 and Training
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

We conducted a performance audit of the National Emergency Grant (NEG), grant
number EM-15067-05-60, awarded to the Louisiana Department of Labor (LDOL). ETA
awarded the $62.1 million grant to help LDOL serve victims of hurricanes Katrina and
Rita. The funds provided short-term disaster relief employment; adjustment assistance
that included core, intensive and training services; and supportive services as
determined necessary.

Our audit covered the period September 1, 2005, through March 31, 2006. Our audit
objectives were to answer the following questions:

       •   Were NEG expenditures allowable, reasonable, allocable, and reported
           accurately?

       •   Were the NEG activities and outcomes reported accurately?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit objectives, scope, methodology and criteria are detailed
in Appendix B.




U.S. Department of Labor—Office of Inspector General                                                  5
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit



Objective 1: Were NEG Expenditures Allowable, Reasonable, Allocable, and
Reported Accurately?

Results and Findings

With few exceptions, tested NEG expenditures were allowable, reasonable, allocable,
and reported accurately. Our review of major internal control systems at the Grantee
and three Local Workforce Investment Areas (LWIAs) did not disclose any material
weaknesses in operating the NEG program. Overall, LDOL and the LWIAs we visited
had adequate policies and procedures in place that provided reasonable assurance that
NEG funds were used appropriately. However, we found a few exceptions at the LWIA
level.

A. Allocation of Salary Costs

At the Jefferson Parish Workforce Connection (JPWC), we found staff timesheets that
were not signed by the employee and/or supervisor, and were not dated. We tested 91
financial transactions at JPWC, 35 of which were administrative staff salaries
transactions involving 13 employees. The 13 employees worked on different programs
and their salaries were allocated among those programs. We examined JPWC’s time
distribution method and activity reports to test the allowability and reasonableness of
staff salaries and fringe benefits charged to the NEG program.

We examined 33 timesheets1 and found that 3 timesheets were completed properly.
For the remaining 30 timesheets, we found the following:

       •   four timesheets were not signed by the employee or supervisor;
       •   six timesheets were not certified by the supervisor until 9 months to a year after
           the end of the pay period;
       •   five timesheets had the employee and supervisor signatures, but the supervisor
           did not date the timesheets;
       •   six timesheets had employee and supervisor signatures but neither dated the
           timesheets; and
       •   nine timesheets were not signed or dated by the employee but were signed
           although not dated by the supervisor.

We contacted four JPWC employees to validate the time charged to the various
programs on which they worked. One individual stated that actual work time was
accurately recorded for each program. Another individual said that information on the
timesheet was not what she submitted. The other two employees indicated they had
been instructed to report the same pre-determined amount of time for each project,

1
    Two transactions were fringe benefits costs which were associated with the salaries of another transaction.

6                                                        U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 04-07-006-03-390
                                                                Louisiana Department of Labor
                                                               National Emergency Grant Audit
regardless of the actual number of hours they actually worked. An ETA monitoring
report, dated April 18, 2006,

noted that JPWC had been allocating personnel expenditures based on the percentage
of funding from each program.

Office of Management and Budget (OMB) Circular A-87, "Cost Principles for State,
Local and Indian Tribe Governments," establishes principles and standards for
determining costs for Federal awards carried out through grants. Attachment A, Part
C.3.a of the Circular states that:

       A cost is allocable to a particular cost objective if the goods or services
       involved are chargeable or assignable to such cost objectives in
       accordance with the relative benefits received.

OMB Circular A-87, Attachment B, Part 11.h.(4) states:

       Where employees work on multiple activities or cost objectives, a
       distribution of their salaries or wages will be supported by personnel
       activity reports or equivalent documentation which meets the standards in
       subsection (5). . . .

Subsection (5) provides that personnel activity reports or equivalent documentation
must meet the following standards:

       (a) They must reflect an after-the-fact distribution of the actual activity of
       each employee,

       (b) They must account for the total activity, for which each employee is
       compensated,

       (c) They must be prepared at least monthly and must coincide with one or
       more pay periods, and

       (d) They must be signed by the employee.

JPWC officials stated that timesheets were not reviewed for accuracy during our audit
period due to the limited staff available after the hurricane and the high demands on the
staff's time.

 B. Participant Work Hours Discrepancies

JPWC subcontractors overpaid participants in some cases. We found five
subcontractor program participants whose pay was based on the incorrect number of
hours reportedly worked. These participants were paid for more hours than they
actually worked. The additional incorrect time for the 5 participants ranged from 4 to 24


U.S. Department of Labor—Office of Inspector General                                            7
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit

hours. These pay discrepancies were due to clerical errors that originated at the
subcontractor level and remained undiscovered until our verification of participants’ time
and pay. JPWC reimbursed the subcontractors associated with these pay
discrepancies based on the incorrect number of hours worked by participants.

C. Expenditures Not Reported Using Accrual Basis of Accounting

WIA regulations at 29 CFR 667.300(c) require expenditures and program income be
reported on the accrual basis of accounting.

The Jefferson Parish Accounting Department (JPAD) provided accounting functions for
JPWC. JPAD did not include accrued expenditures when reporting NEG financial
results. JPAD reported NEG expenditures each month using data from the Parish’s
accounting system, which tracked expenditure on the cash basis of accounting.

D. Lack of Written Procedures for Reviewing and Approving Invoices

During our testing of internal controls, we noted that JPWC did not have written policies
and procedures for reviewing and approving invoices, including support for participant
hours worked and paid. Problems associated with the lack of procedures were evident
in our testing of expenditures discussed previously.

JPWC officials acknowledged not having written procedures at the time of our fieldwork
and stated that this was due to the crisis situation after the hurricane. JPWC also stated
the following:

       During the time period of the audit, there were 8 locations where
       employees were housed plus some worked from their homes. It was an
       impossible situation to have normal control over activities such as this.

Subsequent to our testing of internal controls, JPWC developed written procedures, but
these procedures did not address the review of participants' timesheets and pay
amounts. We believe such a review is necessary to limit the risk of overpayments.

Auditee Response

In response to the draft report, the Assistant Secretary of the Louisiana Department of
Labor agreed with the report's findings and recommendations. He stated the following:

       In summary, intensive technical assistance and program guidance have
       been provided to Jefferson Parish Workforce Connection (JPWC) on each
       of the recommendations to the Assistant Secretary for Employment and

       Training. JPWC has established policies and procedures with specific
       checks and balances to ensure adherence to proper distribution of staff


8                                         U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 04-07-006-03-390
                                                             Louisiana Department of Labor
                                                            National Emergency Grant Audit
       costs, processing and payment of invoices, and participant time and
       attendance sheets. JPWC has also assured LDOL that the accounting


       department for Jefferson Parish Government has made the necessary
       adjustment to report all expenditures on an accrual basis.

OIG Conclusion

The report's recommendations will be resolved during DOL’s formal audit resolution
process.

Recommendations

We recommend the Assistant Secretary for Employment and Training direct LDOL to
provide technical assistance and oversight necessary to ensure that JPWC and JPAD:

   •   Adhere to a cost allocation plan for employee time distribution.

   •   Review and verify subcontractor invoices before making payments.

   •   Report expenditures based on the accrual accounting method.

   •   Develop specific written procedures for reviewing participant invoices, including
       participants' time sheets and pay amounts.




U.S. Department of Labor—Office of Inspector General                                         9
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit

Objective 2: Were the NEG activities and outcomes reported accurately?

Results and Findings

NEG activities and outcomes were reported accurately with one exception. LDOL
reported 7 of 120 sampled participants as employed in temporary disaster relief
assistance even though they never reported for work.

NEG recipients are required to report cumulative financial and performance information
using the ETA 9104 Quarterly Report Form (Quarterly Report). LDOL requires LWIAs
to enter participant data into the State’s participant information system called Louisiana
Virtual One Stop or LAVOS. The State retrieves participants’ information from LAVOS
to prepare its quarterly reports. We examined LDOL's Quarterly Report for the quarter
ended March 31, 2006.

We found that LDOL reported 7 of 120 participants as employed in temporary disaster
relief assistance even though they never reported for work. Participants were reported
as employed for up to 6 months.

According to LWIA officials, a few participants would enroll under NEG but not report to
the worksites for various reasons. LWIA officials explained that the State encouraged
them to keep participants in the program even though they did not report to the worksite
because those participants may need other NEG assistance at a later date.

By reporting participants as placed into temporary employment even though they never
reported to their assigned worksite, LDOL overstated its performance results in the
“Employed in Temporary Disaster Relief Assistance." category.

Auditee Response

In response to the draft report, the Assistant Secretary of the Louisiana Department of
Labor agreed with the report's findings and recommendations.

OIG Conclusion

The report's recommendations will be resolved during DOL’s formal audit resolution
process.




10                                        U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 04-07-006-03-390
                                                        Louisiana Department of Labor
                                                       National Emergency Grant Audit

Recommendation

We recommend the Assistant Secretary for Employment and Training direct LDOL to
ensure that participant employment activity is reported accurately.




Elliot P. Lewis
August 28, 2007




U.S. Department of Labor—Office of Inspector General                                11
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 04-07-006-03-390
                                                        Louisiana Department of Labor
                                                       National Emergency Grant Audit




Appendices




U.S. Department of Labor—Office of Inspector General                                13
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                 U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 04-07-006-03-390
                                                                            Louisiana Department of Labor
                                                                           National Emergency Grant Audit

                                                                                              APPENDIX A

BACKGROUND

NEG Program

The National Emergency Grants (NEG) were established by Title I, Subtitle D, Section
173 of the Workforce Investment Act (WIA).2 The NEGs are discretionary grants
awarded by the Secretary of Labor to provide time-limited funding assistance in
response to significant dislocation events. Eligible dislocation events include natural
disasters as defined by the Robert T. Stafford Disaster Relief and Emergency
Assistance Act. Eligible entities may apply for natural disaster assistance once the
Federal Emergency Management Agency (FEMA) has declared an area eligible for
disaster-related public assistance.

ETA has provided guidance to NEG applicants through publication of the NEG
application procedures in Federal Register, Vol. 69, No. 81, dated April 27, 2004, and
also through information available on their internet website. NEG applications for
disaster assistance are made by submitting Standard Form 424 – Application for
Federal Assistance. The application can be considered an emergency application if it is
submitted within 15 days of the FEMA public assistance declaration. The initial
application is expected to address the temporary job creation component. Other
services may be provided as needed, but a fully documented plan or a separate
modification request to use NEG funds to provide the other services is required. The
submission of the fully documented plan should occur at a point in time when an
adequate assessment of the various needs has been made. This occurs generally no
more than 4 to 6 months after the initial grant award. Most grants are incrementally,
with a maximum level of funding approved by the Secretary of Labor, but typically a
lesser amount is awarded initially. The balance of funds are only awarded after a need
for those funds has been supported by enrollments and expenditures.

Disaster relief grant recipients may provide some or all of the following services to
eligible individuals:

        • adjustment assistance that includes core, intensive and training services as
          authorized at WIA sections 134(d) and 173;

        • supportive services as determined necessary to help workers who require
          such assistance to participate in program activities; and

        • short-term disaster relief employment.



2
 The WIA was passed by Congress in 1998. It was passed to reform federal job training programs and create a
comprehensive investment system.

U.S. Department of Labor—Office of Inspector General                                                          15
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit



Hurricanes Katrina and Rita

On August 29, 2005, Hurricane Katrina came ashore along the Louisiana, Mississippi
and Alabama coasts, causing estimated losses of more than $100 billion. President
Bush declared a major disaster for each of these states under the authority of the
Robert T. Stafford Disaster Relief and Emergency Assistance Act, 42 U.S.C., Sections
5121-5206.

The Louisiana Department of Labor (LDOL) submitted an Application for Federal
Assistance related to Hurricane Katrina on September 1, 2005, requesting $62.1million
in Federal assistance. In LDOL’s application, officials estimated 10,000 participants
would be trained, retrained and placed in the workforce at an average cost of $6,210
per participant.

On September 23, 2005, Hurricane Rita came ashore along the border of Texas and
Louisiana, causing estimated losses of more than $10 billion. President Bush declared
a major disaster for each of these two states.

The Flexibility for Displaced Workers Act was amended by Public Law 109-148, Section
5012, dated December 30, 2005. The Act was amended by striking “Hurricane Katrina”
in each place it appears and inserting “hurricanes in the Gulf of Mexico in calendar year
2005”. This includes individuals affected by Hurricane Rita.




16                                       U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 04-07-006-03-390
                                                             Louisiana Department of Labor
                                                            National Emergency Grant Audit

                                                                            APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY AND CRITERIA

Objectives

The objectives of our audit were to answer the following questions:

   1. Were the NEG expenditures allowable, reasonable, allocable, and reported
      accurately?

   2. Were the NEG activities and outcomes reported accurately?

Scope

We audited the $62.1 million NEG awarded to LDOL to serve individuals affected by
Gulf of Mexico hurricanes in Calendar Year 2005. We tested selected expenditures and
performance data reported for the period of September 1, 2005 through March 31,
2006.

Our audit was conducted in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States, and
included such tests as we considered necessary to satisfy the audit objectives. A
performance audit requires obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. Fieldwork was conducted from March 28, 2006, through August
28, 2007.

Methodology

To achieve our objectives, we obtained an understanding of relevant internal controls
through inquiries with appropriate personnel and inspection of relevant documents,
policies and procedures at the State and local level. Work was performed at the LDOL
and three Local Workforce Investment Areas (LWIAs):

        •   Jefferson Parish Workforce Connection ( LWIA Number 11);

        •   Second Planning District Consortium (LWIA Number 20); and

        •   City of Shreveport (LWIA Number 71).

The LWIAs we visited were selected based on their location (inside and outside the
hurricane affected area), the amount of grant expenditures reported during our audit
period and the types of work activities (cleanup, humanitarian, etc.). We used statistical

U.S. Department of Labor—Office of Inspector General                                         17
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit

sampling to select financial transactions, participant eligibility and performance data for
testing at each site.

ETA provided us with two ETA 9104 Quarterly Reports (December 2005, and March 31,
2006). The Quarterly Reports included financial and performance data from the
inception of the grant up to and including the current quarter.

We tested $50,015 (13 percent) of the grantee’s “State Level” expenditures from
September 2005 through March 2006. For the same period, we tested $1.2 million of
expenditures at the “Operator Level”. Expenditures at LWIAs accounted for 5.1 percent
of total expenditures ($23,554,077) reported on the Form 9104 for the operator level.
We selected financial transactions as follows:

                               Number of          Total             Total           Tested
                                Financial        Dollars           Dollars          Dollars
Location                      Transactions       Tested           Reported        Percentage
(Jefferson Parish Workforce
Connection) -LWIA 11              91            $229,334          $528,954           43.36
(Second Planning District
Consortium) - LWIA 20             43            $912,021         $3,350,933          27.00
(City of Shreveport) -            68            $ 64,180         $1,107,634           5.79
LWIA 71
Total                             202          $1,205,535        $4,987,521          24.17

We randomly selected a total of 120 participants (40 participants at each of the three
local areas we visited) and tested each participant’s eligibility for the NEG program and
the accuracy of reported performance activities. We tested participant eligibility by
comparing documentation acquired by the local officials for each participant selected to
the NEG eligibility requirements as amended by the Flexibility for Displaced Workers
Act. We tested the accuracy and completeness of the reported performance data by
requesting lists of participants who were said to support each performance factor on the
Quarterly Report.

We selected and visited two worksites at each LWIA. We requested a list of all
worksites active during our visit and all active participants assigned to the worksites.
Using the list, we selected worksites with the largest number of active participants. We
interviewed all present participants and documented reasons for any missing
participants. Subsequently, we compared the names of missing participants to
timesheets and participants wage reimbursement requests to detect improper
payments.

We relied on computer-generated data when performing our audit tests, and in
accordance with audit guidelines, we tested the validity and reliability of the data.
Specific audit tests were performed in the areas of financial management and
participant reporting requirements.

18                                           U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-006-03-390
                                                             Louisiana Department of Labor
                                                            National Emergency Grant Audit



Criteria

The principal criteria that governed the work performed were as follows:

       •   WIA Section 173, National Emergency Grants (NEG)

       •   WIA Section 195, General Program Requirements

       •   Public Law 109-72, Flexibility for Displaced Workers Act (provided special
           rules for NEG grants for Gulf of Mexico hurricanes in calendar year 2005)

       •   20 Code of Federal Regulations (CFR), Part 671, Federal Regulations
           pertaining to NEG

       •   29 CFR Part 97, Uniform Administrative Requirements for State/Local
           Governments and Indian Tribes

       •   Office of Management and Budget (OMB) Circular A-87, Cost Principles for
           State/Local Governments and Indian Tribes

       •   Training and Employment Guidance Letter (TEGL) NO. 5-05, Waiver
           Flexibility for Hurricane Katrina Recovery

       •   TEGL NO. 16-03, NEG Policy Guidance

       •   TEGL NO. 16-03, Change No. 3, NEG Policy Guidance. Use of NEG Funds
           to Support Disaster Relief Employment and Training Assistance for
           Individuals Impacted by Hurricane Katrina

       •   TEGL NO. 17-05, Common Measures Policy for the Employment and
           Training Administration’s (ETA) Performance Accountability System and
           Related Performance Issues

       •   NEG Application Procedures

       •   Quarterly Progress Report Definitions of Performance Factors




U.S. Department of Labor—Office of Inspector General                                     19
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 04-07-006-03-390
                                                        Louisiana Department of Labor
                                                       National Emergency Grant Audit

                                                                      APPENDIX C

Acronyms and Abbreviations


CFR       Code of Federal Regulations

ETA       Employment and Training Administration

FEMA      Federal Emergency Management Agency

JPAD      Jefferson Parish Accounting Department

LAVOS     Louisiana Virtual One Stop

LDOL      Louisiana Department of Labor

JPWC      Jefferson Parish Workforce Connection

LWIA      Local Workforce Investment Area

NEG       National Emergency Grant

OMB       Office of Management and Budget

SOF       Statement of Facts




U.S. Department of Labor—Office of Inspector General                                21
Report Number: 05-05-003-10-001
Louisiana Department of Labor
National Emergency Grant Audit




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                U.S. Department of Labor—Office of Inspector General
                                                   Report Number: 04-07-006-03-390
                                                        Louisiana Department of Labor
                                                       National Emergency Grant Audit

                                                                      APPENDIX D

 LOUISIANA DEPARTMENT OF LABOR'S RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                23
Report Number: 05-05-003-10-001
